TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Internal Revenue Service Needs to Do
                      More to Stop the Millions of Dollars
                   in Fraudulent Refunds Paid to Prisoners



                                         September 2005

                              Reference Number: 2005-10-164




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 28, 2005


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:                          Pamela J. Gardiner
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Internal Revenue Service Needs to Do More
                                to Stop the Millions of Dollars in Fraudulent Refunds Paid to Prisoners
                                (Audit # 200510019)

 This report presents the results of our limited-scope review to determine the effectiveness of the
 Internal Revenue Service’s (IRS) procedures for detecting fraudulent and potentially fraudulent
 prisoner refund returns. This review was performed at the request of the House Ways and Means
 Subcommittee on Oversight. The report provides information relating to 10 questions posed by
 the Subcommittee to the Treasury Inspector General for Tax Administration.

 Synopsis
 Refund fraud committed by prisoners is increasing at an alarming rate. The number of
 fraudulent prisoner returns identified by the Criminal Investigation (CI) function has grown
 318 percent, from about 4,300 during Processing Year1 (PY) 2002 to over 18,000 during
 PY 2004. During this same period, the universe of all fraudulent returns increased by 45 percent,
 from about 81,000 to about 118,000.
 In addition, there may be other fraudulent prisoner returns the IRS is not aware of, for two
 primary reasons: resources and incomplete and inaccurate prisoner data. The number of returns
 screened by the CI function for fraud is based on two factors: the likelihood that fraud is present
 and the availability of resources to work the cases. During PY 2004, the Fraud Detection


 1
  Processing year refers to the year in which taxpayers file their tax returns at the Submission Processing sites.
 Generally, returns for 2003 were processed during 2004, although returns for older years were also processed.
                     The Internal Revenue Service Needs to Do More to Stop the
                              Millions of Dollars in Fraudulent Refunds
                                           Paid to Prisoners


Centers (FDC)2 physically screened about 36,000 of the approximately 455,000 refund returns
identified as filed by prisoners. The FDCs did not screen the remaining 419,000 prisoner returns.
We performed additional analysis of data maintained in the CI function’s Electronic Fraud
Detection System3 and the prisoner data file and determined that over 18,000 prisoners
incarcerated during the entire Calendar Year 2003 filed returns with a filing status of either
“Single” or “Head of Household” and claimed over $19 million in Earned Income Tax Credits.4
This problem was reported in 1995 by the prior Inspection Service.5 The IRS implemented most
of the corrective actions for that report; however, the IRS has still not developed and
implemented procedures to effectively identify prisoner returns during initial returns processing.
In addition, our analysis of the approximately 2.8 million prisoner records on the 2004 prisoner
data file identified about 550,000 records that were either missing or inaccurate. More
specifically, there were about 118,000 duplicate Social Security Numbers (SSN),
298,000 records with invalid SSNs, and 134,000 records that were missing from the prisoner
data file because an early deadline excluded individuals incarcerated between September 1 and
December 31, 2003. These inaccuracies prevented the IRS from detecting all fraudulent refund
returns filed by prisoners.
Further, prison authorities expressed frustration with the IRS’ inability to share information on
prisoner refund fraud. Internal Revenue Code (I.R.C.) Section (§) 61036 generally prohibits the
IRS from sharing Federal tax information with other agencies such as State prison authorities,
except under limited circumstances. Federal tax information is shared primarily with State tax
agencies, under the provisions of Federal-State Agreements executed between the IRS and each
State. We reviewed 21 Federal-State Agreements and determined that none had any specific
provision authorizing the IRS to share Federal tax information with State prisons.
We analyzed prisoner refund scheme data and the prisoner data file to determine which prisons
had the highest incidence of fraudulent returns. Prison facilities located in South Carolina and
Florida were among the top prisons listed with 200 or more instances of fraudulent refund
returns. Although providing specific information about individuals filing fraudulent returns
would violate I.R.C. § 6103, it would not be a violation if the CI function provided summary


2
  The FDCs operate closely with Submission Processing sites where individual tax returns are filed. The FDCs use
manual and computerized techniques to detect potentially fraudulent refund returns, prevent the issuance of those
refunds, and refer cases to the CI function field offices for investigation.
3
  The Electronic Fraud Detection System is an automated system used by personnel in the FDCs to review
potentially fraudulent tax returns.
4
  The Earned Income Tax Credit is a refundable credit established by Congress to aid low-income workers.
Refundable means the taxpayer will receive the credit even if he or she does not owe taxes.
5
  Review of the Tax Implications of the New Earned Income Tax Credit Laws (Reference Number 055503,
dated July 7, 1995). The Inspection Service was the predecessor organization to the current Treasury Inspector
General for Tax Administration, created in 1999.
6
  I.R.C. § 6103 (2004).
                                                                                                                    2
                   The Internal Revenue Service Needs to Do More to Stop the
                            Millions of Dollars in Fraudulent Refunds
                                         Paid to Prisoners


information to the various prisons. This could alert prison authorities and allow them to take
appropriate actions.
We presented our interim results to and participated in a hearing with the House Ways and
Means Subcommittee on Oversight on June 29, 2005. Prior to the hearing, we shared our results
with CI function management and learned of their initiatives to enhance the detection of
fraudulent refund returns, including prisoner returns. These initiatives, which were described
during the Chief, CI’s, testimony, included continuing coordination to acquire accurate prisoner
information to maximize the effectiveness of the CI function’s automated systems for timely
identification of questionable prisoner returns, conducting training sessions with all Questionable
Refund Program field coordinators and management to discuss expectations of the fraud program
and emerging trends in prisoner refund schemes and to share best practices for coordinating
efforts with prisons, increasing efforts in working with the prisons to identify emerging activities
involving refund fraud, and assuring all FDCs have procedures in place to coordinate fraud
prevention efforts with the prisons.
We are encouraged by CI function management’s efforts to enhance the detection of fraudulent
refund returns. As described throughout this report, we will conduct follow-on reviews to
determine the effectiveness of the IRS’ processes for detecting and preventing fraudulent refund
returns and will make recommendations at that time.

Response
We discussed the results of our review with CI management officials during our fieldwork, and
management advised us of their ongoing efforts to combat prisoner-related refund fraud.
Accordingly, we made no further recommendations in this report; however, we plan to continue
assessing the IRS’ efforts on this important tax administration issue. The Chief, CI, provided a
written response outlining the CI function’s commitment to improving its ability to identify and
stop fraudulent refund returns. The complete response to the discussion draft report is included
as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report findings.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs),
at (202) 622-8500.




                                                                                                   3
                         The Internal Revenue Service Needs to Do More to Stop the
                                  Millions of Dollars in Fraudulent Refunds
                                               Paid to Prisoners




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Number of Fraudulent Refunds Issued and the Estimated
          Cost to the Taxpayer .....................................................................................Page 3
          Why the Internal Revenue Service Did Not Stop
          Fraudulent Refunds.......................................................................................Page 6
          The Internal Revenue Service’s Ability to Detect Fraud by
          Prisoners Using the Names of Other Individuals..........................................Page 9
          Frequency of Fraud Committed Using the Earned Income Tax
          Credit and Other Forms ................................................................................Page 10
          Efforts to Deter Fraud, Refer Cases for Prosecution,
          and Inform Prison Authorities ......................................................................Page 12
          Efforts to Coordinate With Prisons and State Revenue Authorities .............Page 15
          Notification of Parole Authorities.................................................................Page 16
          Frequency of Updating Prison Files .............................................................Page 16
          Largest Number of Returns Prepared by a Single Prisoner ..........................Page 17
          Prisons With the Highest Incidence of Refund Fraud ..................................Page 18

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 22
          Appendix II – Major Contributors to This Report ........................................Page 25
          Appendix III – Report Distribution List .......................................................Page 26
          Appendix IV – Management’s Response to the Draft Report ......................Page 27
                     The Internal Revenue Service Needs to Do More to Stop the
                              Millions of Dollars in Fraudulent Refunds
                                           Paid to Prisoners




                                           Background

This review was performed at the request of the House Ways and Means Subcommittee on
Oversight. The Subcommittee expressed concerns about the increase in refund fraud committed
by individuals who are incarcerated in Federal and State prisons.
The Oversight Subcommittee members asked the Treasury Inspector General for Tax
Administration (TIGTA) to assess the Internal Revenue Service’s (IRS) procedures to detect
fraudulent and potentially fraudulent prisoner refund returns and to provide information
concerning the following:

    1) How many fraudulent refunds are issued? How many are stopped? What is the
       estimated cost to the taxpayer? Could there be other fraudulent prisoner returns that the
       IRS is unaware of?
    2) The IRS reported to the Committee that in Processing Year 2004, of the 18,159 returns
       determined to be fraudulent, only 14,033 refunds were stopped. Why wasn’t the IRS able
       to stop the refunds in the additional 4,000 cases?
    3) It is our [the Committee’s] understanding the IRS’ efforts are focused on flagging returns
       filed by inmates whose names are in the prisoner file. Does the IRS have any way to
       detect fraud committed by prison inmates who are using the names of other individuals to
       commit fraud? Is there any estimate of the scope of such fraud?
    4) How frequently do inmate fraud schemes use EITC [the Earned Income Tax Credit],1
       Form 4852,2 Form W-2, or false Schedule Cs3 to facilitate the fraud? What measures has
       the IRS taken?
    5) What does the IRS do to deter tax fraud by inmates and those on the outside assisting
       inmates? Stopping refunds? Referring cases for prosecution? Does the IRS inform
       [S]tate prison authorities when they detect inmate fraud so that they can take



1
  The Earned Income Tax Credit (EITC) is a refundable credit established by Congress to aid low-income workers.
Refundable means the taxpayer will receive the credit even if he or she does not owe taxes.
2
  Substitute for Form W-2, Wage and Tax Statement, or Form 1099-R, Distributions From Pensions, Annuities,
Retirement, or Profit-Sharing Plans, IRAs, Insurance Contracts, Etc. (Form 4852). This is a substitute for a
Wage and Tax Statement (Form W-2) that taxpayers use to report wages and withholding when they do not receive a
Form W-2 from their employer. IRAs are Individual Retirement Arrangements.
3
  Profit or Loss From Business (Schedule C). This Schedule is used by taxpayers to report income and expenses
from self-employment on a U.S. Individual Income Tax Return (Form 1040).
                                                                                                       Page 1
                      The Internal Revenue Service Needs to Do More to Stop the
                               Millions of Dollars in Fraudulent Refunds
                                            Paid to Prisoners



         administrative disciplinary action against the inmate? If not, is such action prohibited by
         [Internal Revenue Code] [S]ection 6103?4
    6) Does the IRS have a uniform system for informing and coordinating efforts with prison
       authorities in Federal and State prisons? Does the IRS have a system for coordinating
       its efforts in this area with State revenue authorities?
    7) Does the IRS notify parole authorities if a paroled prisoner commits refund fraud? Is
       such action prohibited by IRC [I.R.C.] [S]ection 6103?
    8) How frequently are prison files updated?
    9) What is the largest number of returns prepared by a single prisoner?
    10) What prison has the most number of inmates accused of refund fraud, and how many
        incidents occurred in that prison?
Our review was performed at the Criminal Investigation (CI) function National Headquarters in
Washington, D.C.; the Atlanta Fraud Detection Center (FDC);5 and the Fresno Submission
Processing Site6 during the period May through July 2005. The audit was conducted in
accordance with the President’s Council on Integrity and Efficiency Quality Standards for
Inspections. Detailed information on our objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.
The Oversight Subcommittee held a hearing on this subject on June 29, 2005, at which the
Inspector General for Tax Administration testified. This report presents the results of the work
we performed for and presented at that hearing, as well as some additional analyses.
We are presenting the results of our review by separately addressing each of the questions posed
by the Subcommittee members. The information and data we obtained were provided to us by
the CI function. Although we did not independently verify these data and do not express an
overall opinion on their accuracy and completeness, we did identify some inaccuracies that we
do comment on.




4
  Internal Revenue Code (I.R.C.) Section (§) 6103 (2004).
5
  The FDCs use manual and computerized techniques to detect potentially fraudulent refund returns, prevent the
issuance of those refunds, and refer cases to the CI function field offices for investigation.
6
  The Submission Processing site is the data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
                                                                                                             Page 2
                      The Internal Revenue Service Needs to Do More to Stop the
                               Millions of Dollars in Fraudulent Refunds
                                            Paid to Prisoners




                                      Results of Review

1) The Number of Fraudulent Refunds Issued and the Estimated Cost
to the Taxpayer

Table 1 presents data reported by the IRS CI function on the total number of returns filed and
refund amounts claimed by all individuals and by prisoners during Processing Year (PY) 2004.7
                     Table 1: Refund Returns Filed and Refunds Claimed
                   Number of Returns                      Total              Prisoner        Percentage
           Total Returns Filed                           130,459,600      Not Available8
           Refund Returns Filed                          106,420,200             455,097        0.43%
           Returns Reviewed for Potential Fraud               463,222             36,126        7.80%
               Fraudulent Refund Returns9                     118,075             18,159       15.38%
               Fraudulent Refunds Stopped                      81,922             14,033       17.13%
               Fraudulent Refunds Issued                       36,153              4,126       11.41%
                   Amount of Refunds
           Refunds Requested                       $227,573,835,000        $758,951,862         0.33%
           Fraudulent Refunds                          $440,773,403*         $68,179,070       15.47%
           Fraudulent Refunds Stopped                  $309,961,554*         $53,456,963       17.25%
           Fraudulent Refunds Issued                    $130,811,849         $14,722,107       11.25%
               Average Fraudulent Refund                       $3,733             $3,755
               Average Fraudulent Refund
               Stopped                                         $3,784             $3,809
               Average Fraudulent Refund
               Issued                                          $3,618             $3,568
           * Does not include 1 scheme with 2 returns claiming $1.8 billion.
          Source: The CI function’s data dated April 1, 2005.

As shown in Table 1, a disproportionately higher percentage of fraudulent returns are filed by
incarcerated individuals. Although prisoner returns account for only .43 percent of all refund


7
  Processing year refers to the year in which taxpayers file their tax returns at the Submission Processing sites.
Generally, returns for 2003 were processed during 2004, although returns for older years were also processed.
8
  The IRS cannot identify all prisoner returns because the prisoner data file is matched only against refund returns.
9
  This could include fraudulent returns identified during IRS returns processing or by the Electronic Fraud Detection
System, which is an automated system used by personnel in the FDCs to review potentially fraudulent tax returns.
Fraudulent returns are also identified with the assistance of prison authorities, informants, or other sources.
                                                                                                             Page 3
                     The Internal Revenue Service Needs to Do More to Stop the
                              Millions of Dollars in Fraudulent Refunds
                                           Paid to Prisoners



returns, they account for over 15 percent of the fraudulent returns identified by the IRS. Refund
fraud committed by prisoners is growing at an alarming rate. The number of fraudulent prisoner
returns identified by the CI function grew from about 4,300 during PY 2002 to over
18,000 during PY 2004 (a 318 percent increase). During the same period, all fraudulent returns
identified grew by 45 percent, from about 81,000 to about 118,000. The percentage of
fraudulent returns identified as prisoners grew from 5 percent to 15 percent.

The IRS may be unaware of other fraudulent prisoner returns

The IRS may be unaware of other fraudulent prisoner returns for two primary reasons: resources
and incomplete prisoner data.
Resources: The total number of returns screened by the FDCs is based on two factors: the
likelihood that fraud is present and the availability of resources to work the cases. Each refund
return is given a “data mining score” based on certain criteria. The higher the score, the greater
the chance the refund could be fraudulent. The CI function also uses other criteria to screen
returns. The number of returns screened is based on these criteria and the resources available.
During PY 2004, the FDCs physically screened about 36,000 of the approximately
455,000 refund returns identified as filed by prisoners. However, the FDCs did not physically
screen the remaining 419,000 prisoner returns that claimed $640.4 million in refunds and
$315.810 million in EITC. We performed additional analysis of the Electronic Fraud Detection
System and the prisoner data file and determined that over 18,000 prisoners incarcerated during
the entire Calendar Year 2003 filed returns with a filing status as “Single” or “Head of
Household” and claimed over $19 million in EITC. Since these prisoners were incarcerated for
the entire year, they would have had neither eligible earned income to qualify for the EITC nor a
qualified child who lived with them for more than 6 months.
Although the FDCs do not have the resources to physically screen all prisoner returns, we
believe the IRS has the opportunity during regular returns processing to identify and stop most of
the $19 million of EITC claimed.11
The problem of prisoners incorrectly claiming the EITC is not a new one. This issue was
reported in 1995 by the prior Inspection Service,12 which concluded the IRS did not have a plan



10
   This number differs from that reported by the CI function due to data anomalies.
11
   The IRS disallowed some of these EITC claims through its “math error” process (e.g., when the EITC claimed
was above the statutory maximum or the taxpayer did not meet the age requirements). However, we were unable to
quantify the amount during this review. We plan to consider this area as part of a follow-on review.
12
   Review of the Tax Implications of the New Earned Income Tax Credit Laws (Reference Number 055503, dated
July 7, 1995). The Inspection Service was the predecessor organization to the current TIGTA, created in 1999.
                                                                                                       Page 4
                     The Internal Revenue Service Needs to Do More to Stop the
                              Millions of Dollars in Fraudulent Refunds
                                           Paid to Prisoners



to implement an amendment to the EITC13 that denied the credit to prisoners who use income
earned while in prisons to qualify for the credit. The IRS implemented most of the corrective
actions for that report; however, the IRS still has not developed and implemented procedures to
effectively identify prisoner returns during initial returns processing.
We could not specifically determine why systemic procedures were not implemented, but one
CI function management official believed the inaccuracy of the prisoner data file was a factor.
The Submission Processing function currently uses only manual procedures to identify prisoner
returns. We were also advised by Wage and Investment Division management that there have
been no studies, nor are there current plans to conduct a study, to determine the feasibility of
inputting a prisoner code to identify prisoner returns during initial returns processing. Further,
management believed it would not be cost effective to match income reporting documents or
prison identification numbers to identify fraudulent prisoner returns.
Incomplete Prisoner Data: During PY 2004, individuals identified on the prisoner data file filed
455,097 refund returns. There were about 2.8 million prisoner records in the 2004 prisoner data
file. However, we estimate almost 19 percent (about 550,000 records) are missing or inaccurate
for the following reasons:
     •   About 255,000 records did not have a Social Security Number (SSN) that is consistent
         with a valid number. For example, over 252,000 records had 000-00-0000 as the SSN.
     •   About 118,000 records had duplicate SSNs.
     •   Almost 43,000 records had invalid SSNs because they exceeded the highest SSN issued
         by the Social Security Administration.
     •   About 134,000 records were not in the 2004 prisoner data file because prisons had to
         submit such information to the IRS by the end of August 2003. The early deadline
         excluded individuals incarcerated between September 1 and December 31, 2003.
We were unable to determine the number of potentially fraudulent refunds prisoners claimed
because prison authorities did not provide accurate SSNs to the IRS. However, we performed an
analysis of the 134,000 prisoner records that were excluded from the 2004 prisoner data file
because of the early deadline and determined 23,185 prisoners claimed $39.4 million in refunds,
including $15.7 million in EITC. Since these individuals were incarcerated for only part of
Calendar Year 2003, they could have had a legitimate need to file returns. However, due to the
propensity of prisoners to file fraudulent returns, timely identification of prisoner returns could
result in detection of additional fraud.




13
   Uruguay Round Agreements Act, Pub. L. No. 103-465, § 723, 108 Stat. 4809, 5003 (1994) (codified as amended
at 26 U.S.C. § 32 (c)(2)(B)(iv) (2005)).
                                                                                                      Page 5
                   The Internal Revenue Service Needs to Do More to Stop the
                            Millions of Dollars in Fraudulent Refunds
                                         Paid to Prisoners



During the June 29, 2005, Congressional hearing on prisoner refund fraud,
Representative Tom Feeney of Florida, stated,
       It is unacceptable that [S]tate prisons receive [F]ederal funding, yet some are unwilling
       to cooperate with the IRS to prevent inmates from defrauding the [F]ederal
       [G]overnment. I encourage the [C]ommittee to explore ways to encourage or to provide
       incentives to [S]tates to share basic information about inmates with the [F]ederal
       [G]overnment.

The inaccuracies in the prisoner data file prevented the IRS from detecting all fraudulent refund
returns filed by prisoners. We believe it is imperative for the IRS to have an accurate and timely
prisoner data file, not only for the CI function but also for the Submission Processing function to
stop fraudulent prisoner refunds that are below the tolerances established for possible criminal
prosecution.


2) Why the Internal Revenue Service Did Not Stop Fraudulent
Refunds

As previously noted, the IRS identified about 118,000 fraudulent refund returns during 2004 but
was unable to stop the refunds on about 36,000 returns (31 percent), about 4,000 of which were
prisoner returns. The IRS often issues refunds on tax returns it eventually identifies as fraudulent
because of the short time constraints it sets for itself. Part of its customer service philosophy is
to pay tax refunds promptly since the vast majority of tax refunds are legitimate. This attempt to
pay refunds promptly generally gives the IRS about 3 weeks to prevent a fraudulent refund from
being paid. During that time, the FDC evaluates the return for indicators of fraud, verifies any
wage and withholding information with employers, and identifies other potentially fraudulent
returns with similar characteristics. The IRS must work quickly within this time period to ensure
legitimate refunds are paid promptly.
The CI function must physically review the return to collect return information that is not entered
electronically. The CI function has even less time to review a paper return that requests an
electronic direct deposit of the refund into a bank account. Over 75 percent of all fraudulent
refund returns filed by prisoners in PY 2004 were filed by paper instead of electronically, and
this presents the IRS with unique challenges.




                                                                                             Page 6
                      The Internal Revenue Service Needs to Do More to Stop the
                               Millions of Dollars in Fraudulent Refunds
                                            Paid to Prisoners



We obtained a computer extract from the CI function dated May 4, 2005, that contained
4,261 records of fraudulent refunds issued to individuals identified on the 2004 prisoner data
file.14
Table 2 shows the five most common reasons why these fraudulent refunds were issued. These
5 reasons represented 91.3 percent of all fraudulent prisoner refunds issued.
                    Table 2: Top Five Reasons Why Refunds Were Issued
                                                    Total Refunds        Electronic          Paper
                   Reason Refund Issued                Issued             Return             Return
              Identified After Cycle Cutoff                   2,196                 600             1,596
              Other                                             786                 192              594
              No Selection                                      462                   79             383
              Tax Examiner Error                                320                 108              212
              Prior Year Return                                 128                   31              97
                Totals                                        3,892               1,010             2,882
                                                                                               15
             Source: TIGTA analysis of the Scheme Tracking and Referral System (STARS).

Cycle Cutoff: Tax returns entering the Submission Processing function go through various
computer routines to perfect the data for processing. Various dates during the processing cycle
have been established for certain routines to be completed so returns, and any resulting refunds,
can be processed timely.
Other or No Selection: The CI function selected these two reasons why refunds were issued in
over 29 percent of the cases. While these are legitimate reasons, we believe they should be used
sparingly. Using generic reasons could make it more difficult to identify the real reason refunds
are issued and to make improvements to better identify and stop the refunds. The CI function
indicated time constraints during processing may have led to the high use of these categories.
Prior Year Return: These are returns that were processed in the prior year but were detected
during the current processing year. For example, these returns could have been identified as a
result of an informant or their association with a current-year scheme.
Table 2 is based on data as originally entered by the CI function into the STARS and may not be
descriptive enough for CI function management to determine why refunds were issued. The


14
   This is slightly higher than the 4,126 fraudulent refunds reported as of April 1, 2005, because fraudulent refunds
are continuously being identified.
15
   A database that contains information on fraudulent returns and schemes such as the amount of refunds claimed
and stopped, the amount of EITC claimed and stopped, and information on the types of false documents used to
perpetrate the scheme.
                                                                                                               Page 7
                     The Internal Revenue Service Needs to Do More to Stop the
                              Millions of Dollars in Fraudulent Refunds
                                           Paid to Prisoners



CI function further analyzed the reasons tax refunds were not stopped and identified the
following causes:16
            Table 3: CI Function Analysis of Reasons Refunds Were Issued
                                                                              Total Refunds
                                    Reason Refund Issued                         Issued
                    Return Preparer Program Case                                          156
                    Prior Year Return                                                     179
                    Did Not Meet Data Mining Tolerances                                   903
                    Untimely Receipt of, or Direct Deposit Refund on,
                    Paper Returns                                                       1,270
                    Volume of Electronic Return Scanning (resource issue)                 428
                    Human Detection, Data, or Input Errors                              1,064
                     Total Refunds Issued                                               4,000
                  Source: The CI function.

Return Preparer Program Case: According to CI function management, refunds are usually not
stopped on these types of investigations because the focus of the investigation is on the return
preparer, not individual taxpayers who, knowingly or unknowingly, are party to the fraud.
Did Not Meet Data Mining Tolerances: The return was processed in an earlier cycle and did not
meet the tolerances. A later fraudulent return is detected (either by data mining or other sources)
that contains data linking it to returns in an earlier cycle. The FDC analyst reviewing this later
return determined the earlier return had similar characteristics and subsequently determined it to
be fraudulent.
Untimely Receipt of, or Direct Deposit Refund on, Paper Returns: As previously mentioned,
paper returns present the IRS with unique challenges. An FDC analyst must obtain the actual
return from the Submission Processing site. However, analysts may not receive the return in
time to review it and stop the refund, whether electronic or paper.
Volume of Electronic Return Scanning: Electronic returns have most of the information,
including employer, available electronically for review. The CI function is assuming the volume
of returns was so large that the FDC analysts could not review them in time to determine if they
were fraudulent and stop the refunds.


16
  The CI function’s analysis is based on 4,000 refunds. Therefore, it cannot be compared with the data we obtained
on 4,261 refunds. Although the CI function’s new analysis gives a general comparison and provides a better
indication of the reason refunds are issued, the CI function made some assumptions based on data analysis and not
on actual reviews of cases.
                                                                                                          Page 8
                      The Internal Revenue Service Needs to Do More to Stop the
                               Millions of Dollars in Fraudulent Refunds
                                            Paid to Prisoners




Use of freeze codes to stop refunds

Operating procedures provide for the FDCs to input freeze codes on the Master File17 when a
fraudulent refund return is identified. This will prevent the automatic issuance of a future
refund.
We determined there were no freeze codes on the accounts of 2,972 of the 15,371 prisoners who
filed 18,343 fraudulent returns during PY 2004. As a result, some of these prisoners filed
203 returns claiming $587,645 in refunds during PY 2005. The IRS later reversed 29 refunds for
$115,338. We identified another 186 prisoner accounts on which the freeze codes were not input
until 2005. Although only 8 refunds were issued on these 186 accounts, failure to timely input
freeze codes could result in the issuance of improper refunds.
We did not determine why freeze codes were not entered for these accounts. The CI function has
indicated it plans to automate the input of the freeze code during PY 2006. We plan to conduct a
follow-on review, during which we will evaluate the effectiveness of this process.


3) The Internal Revenue Service’s Ability to Detect Fraud by
Prisoners Using the Names of Other Individuals

The CI function’s management information system is currently not capable of providing the
information needed to answer this question. This information could be obtained through a
time-consuming process of manually reviewing each case file involving refund fraud. Our
analysis of 18,343 fraudulent prisoner refund returns identified during PY 2004 showed:
     •   There were 1,193 schemes claiming $68.7 million in refunds.18
     •   These schemes included almost 69,000 returns not identified as prisoners that claimed
         $221.1 million in refunds.19



17
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
18
   This includes 66 schemes designated as Return Preparer Program cases. A scheme could consist of only one
fraudulent return or hundreds of fraudulent returns.
19
   Returns not identified as prisoner-filed returns could actually have been filed by prisoners but not identified as
such due to the incompleteness of the prisoner data file. These could also be situations involving prisoners using the
SSNs of nonprisoners or nonprisoners using prisoner SSNs. Likewise, there could be only one or two prisoner-filed
returns in a scheme that involves many nonprisoner returns. We excluded nonprisoner fraudulent returns that are
part of a Return Preparer Program scheme or a nonprisoner dump scheme (defined later).
                                                                                                              Page 9
                  The Internal Revenue Service Needs to Do More to Stop the
                           Millions of Dollars in Fraudulent Refunds
                                        Paid to Prisoners




4) Frequency of Fraud Committed Using the Earned Income Tax
Credit and Other Forms


The CI function maintains information regarding refund fraud in the STARS. The STARS
contains information on fraudulent returns and schemes, the amount of refunds claimed and
stopped, the amount of EITC claimed and stopped, and the types of false documents used to
perpetrate the scheme (e.g., Form 4852, Form W-2, or Schedule C).

Schemes claiming the EITC

According to the STARS, the number of fraudulent refund returns and schemes that claimed the
EITC, regardless of the method or IRS forms used to commit the fraud, is:
       Total Number of Different Schemes:           740
       Number of Returns Claiming the EITC:         4,554
       Amount of EITC Claimed:                      $9.4 million
Although the STARS contains information on the amount of EITC stopped, we are unable to
determine the exact amount of EITC that was issued or stopped due to the number of variables
involved in determining what makes up the refund amount. For example, there could be other
credits claimed on the return such as the child credit. In addition, some of the EITC could be
offset by self-employment tax.

Schemes using other IRS forms

We attempted to determine the number of schemes in which prisoners used Form 4852,
Form W-2, or Schedule C. There could be more than one document per return. However, the
STARS data are not complete and cannot be completely relied upon. Although the CI function
identified 18,343 fraudulent refund returns, the STARS listed only 10,705 false documents.
Based on these limited data, we determined the CI function identified the following:
Schemes With Form 4852: We were advised that many prisoner schemes involve Form 4852.
In addition, during a visit to an FDC, we reviewed three different refund schemes. All involved
Income Tax Returns for Single and Joint Filers With No Dependents (Form 1040EZ), with a
handwritten Form 4852, and the Employer Identification Numbers were missing from the
Forms 4852. However, we compared 1 of the schemes to the STARS and determined the
STARS did not include 70 percent of the false Forms 4852 for that scheme. We were later

                                                                                         Page 10
                  The Internal Revenue Service Needs to Do More to Stop the
                           Millions of Dollars in Fraudulent Refunds
                                        Paid to Prisoners



advised the FDC did not include a Form 4852 on the STARS if the Employer Identification
Number was missing.
Notwithstanding the incomplete data on Forms 4852, the STARS database showed the following
information related to this Form:
       Total Number of Different Schemes:           43
       Number of Returns With Form 4852:            2,147
       Amount of Refunds Claimed:                   $4.7 million
       Amount of Refunds Stopped:                   $4.0 million
       Amount of Refunds Issued:                    $0.7 million
Schemes With Form W-2:
       Total Number of Different Schemes:           944
       Number of Returns With False W-2:            7,662
       Amount of Refunds Claimed:                   $34.2 million
       Amount of Refunds Stopped:                   $26.5 million
       Amount of Refunds Issued:                    $ 7.7 million
Schemes With Schedule C:
       Total Number of Different Schemes:           184
       Number of Returns With Schedule C:           1,314
       Amount of Refunds Claimed:                   $5.0 million
       Amount of Refunds Stopped:                   $3.5 million
       Amount of Refunds Issued:                    $1.5 million
The schemes with Schedule C indicate there are only 1,314 fraudulent returns that had a
Schedule C. However, the FDCs do not know if the Schedule C on each of these returns is
fraudulent. That determination is made upon further investigation by either CI function field
office or Compliance function personnel.
Since there can be more than one false document for each return, the same fraudulent return may
be included more than once in the above analysis. The refund amounts listed relate to the returns
in which the document appeared. We do not know if the entire amount of the refund claimed,
stopped, or issued is entirely or partially related to any one document.




                                                                                         Page 11
                   The Internal Revenue Service Needs to Do More to Stop the
                            Millions of Dollars in Fraudulent Refunds
                                         Paid to Prisoners




5) Efforts to Deter Fraud, Refer Cases for Prosecution, and Inform
Prison Authorities

Efforts to deter fraud

In the past, the CI function overall has not had a comprehensive approach with the State prisons
to address tax fraud committed by prisoners, with the exception of obtaining prisoner data from
the States for use in tax return processing. In some locations, prisoner refund fraud was not
considered a prevalent issue. According to the CI function, some locations have established
contacts and implemented procedures to address prisoner refund fraud issues. Further, some
United States Attorney’s offices are reluctant to pursue these investigations, believing it is not a
prudent use of resources, particularly if the person is already incarcerated and an additional
charge would likely not yield additional punitive sanctions. With the recent attention to this
issue, as a deterrent, the CI function plans to initiate actions through its public affairs office to
inform the State prisons of instances of prisoner refund fraud. In addition, the CI function has
recognized steps that both the IRS and the States can take to deter and detect fraudulent tax
return activity by prisoners. In the June 29, 2005, testimony before the House Ways and Means
Subcommittee on Oversight, the Chief, CI, provided the following examples of current efforts to
improve coordination:
      •   Continue coordination to acquire accurate prisoner information to maximize the
          effectiveness of the CI function’s automated systems for timely identification of
          questionable prisoner returns.
      •   Conduct training sessions regarding prisoner schemes with all Questionable Refund
          Program field coordinators and management to discuss expectations of the fraud
          program and emerging trends in prisoner refund schemes and to share best practices for
          coordinating fraud prevention efforts with prisons.
      •   Increase coordination efforts between CI field offices and prisons, especially those
          with emerging or existing refund fraud issues.
      •   Enhance procedures for the FDCs to coordinate fraud prevention efforts with the
          prisons in the States the FDCs service. This may include the establishment of
          procedures for the FDCs to review IRS correspondence sent by prisoners.
If properly implemented, these efforts should improve the IRS’ ability to detect and deter refund
fraud and increase meaningful interaction between the IRS and prison authorities. We will
continue to evaluate IRS activity on this important issue during our follow-on reviews and make
recommendations as warranted.

                                                                                             Page 12
                      The Internal Revenue Service Needs to Do More to Stop the
                               Millions of Dollars in Fraudulent Refunds
                                            Paid to Prisoners




Fraudulent refunds referred for prosecution

As of March 31, 2005, individuals associated with only 3 of the 1,193 identified schemes
involving prisoner returns had been referred for prosecution. This low number could be partially
attributed to the length of time it takes the CI function to recommend a case for prosecution
(about 13 months). Our comparison of the prisoner data file to the Criminal Investigation
Management Information System20 as of March 2005 illustrates that, although some of the
prisoners with fraudulent refunds are criminally investigated, almost 91 percent are not referred
for investigation or the investigations are closed without a prosecution recommendation.
Because our review was limited in scope, we did not evaluate those returns that did not meet the
criteria for criminal referral. We plan to consider this during our follow-on reviews.
Table 4 shows the investigative status (as of March 2005) of the 18,343 fraudulent returns the
CI function identified during PY 2004.




20
  This is a database that tracks the status and progress of criminal investigations and the time expended by special
agents. It is also used as a management tool that provides the basis for decisions of both local and national scope.




                                                                                                             Page 13
                        The Internal Revenue Service Needs to Do More to Stop the
                                 Millions of Dollars in Fraudulent Refunds
                                              Paid to Prisoners



              Table 4: Status of Investigations on Fraudulent Prisoner Returns
                                                         Number of          Number of            Fraudulent
                                                          Schemes       Fraudulent Returns     Refund Amount
     Not Referred for Investigation                              881                  15,274            $59.96M
     Primary Investigations (PI) Opened21                        312                   3,069            $ 8.77M
                                                               1,193                  18,343            $68.73M
     PI Closed Without a Resulting Subject Criminal
     Investigation (SCI)22                                       171                   1,335            $ 2.95M
     PI Still Open                                                66                     699            $ 2.25M
     SCI Opened                                                   75                   1,035            $ 3.56M
                                                                 312                   3,069            $ 8.76M
     SCI Closed With No Prosecution Recommendation                  6                     38              $.11M
     SCI Referred for Prosecution                                   3                     62              $.28M
     SCI Still Open                                               66                     935            $ 3.17M
                                                                  75                   1,035            $ 3.56M
     Total Discontinued Investigations                         1,058                  16,647            $63.02M
     Percentage of Discontinued Investigations                88.7%                   90.8%               91.7%
Source: TIGTA analysis of the STARS and the Criminal Investigation Management Information System.



Informing prison authorities

Internal Revenue Code (I.R.C.) Section (§) 6103 generally prohibits the IRS from sharing
Federal tax information with other agencies such as State prison authorities, except under limited
circumstances. In general, Federal tax information is shared primarily with State tax agencies,
under the provisions of Federal-State Agreements executed between the IRS and each State.
CI function management advised that they had recognized the limitations of I.R.C. § 6103 and
attempted to identify other avenues to share fraudulent return information with State prison
authorities, but they were advised by the IRS Office of Disclosure that this was prohibited by

21
   Primary investigations may evolve on individuals or entities from work completed in the evaluation process, when
it appears that an identified individual or entity may have prosecution potential.
22
   An SCI is opened when an individual or entity is alleged to be in noncompliance with the laws enforced by the
IRS and has prosecution potential. The objective of an SCI is to gather pertinent evidence to prove or disprove the
existence of a violation.

                                                                                                          Page 14
                   The Internal Revenue Service Needs to Do More to Stop the
                            Millions of Dollars in Fraudulent Refunds
                                         Paid to Prisoners



I.R.C. § 6103. We reviewed 21 Federal-State Agreements and determined that none had any
specific provision authorizing the IRS to share Federal tax information with State prisons.
Further, except in limited circumstances, State tax agencies are also generally prohibited from
sharing Federal tax information with other agencies in their States, including prisons.
During the June 29, 2005, Congressional hearing on prisoner refund fraud, two State prison
authorities expressed frustration at the inability of the IRS to share prisoner tax data. One
witness stated,
       A vast amount of information is given to the IRS every tax year concerning inmate tax
       fraud. Virtually nothing is given to us in return. Once it is determined that the
       information has been used to file a tax return, the IRS then deems it to be, “confidential
       taxpayer information.” Once the information is turned over, our agency has no idea
       what happened to it or if it is in fact a fraudulent return.
The other witness stated,
       . . . if the IRS identifies an inmate that is engaging in this criminal activity they are
       prohibited from informing my office. A cooperative effort is necessary to be successful in
       combating this problem.
In addition, two Congressmen called for more information sharing and better enforcement
measures, such as allowing the IRS to share tax information with the States’ Departments of
Corrections. The Chief, CI, also testified that, while the IRS may possess information related to
ongoing criminal activities in prisons, it is unable to alert prison authorities of these activities.
At the conclusion of the hearing, Committee Chairman Ramstad asked the TIGTA to draft a
legislative proposal to amend I.R.C. § 6103 to allow the IRS to share information with prison
authorities.


6) Efforts to Coordinate With Prisons and State Revenue Authorities

The IRS does not have a uniform system for coordinating with Federal and State prisons. Each
FDC and CI function field office is responsible for establishing its own contacts and procedures.
While some FDCs may be more proactive, others are not. For example, we surveyed the
10 FDCs and determined 4 have not established any procedures to have prison mail addressed to
the IRS sent directly to the FDC. Of the other six FDCs, one receives mail from all States in its
area and the other five receive mail from only some of the prisons in the States they oversee.
I.R.C. § 6103 allows the IRS to share tax information with State tax agencies using Federal-State
Agreements. However, the CI function has not coordinated efforts between the FDCs and the
State tax agencies on refund fraud, including fraud committed by prisoners. Eight of the
10 FDCs indicated they do not share information on fraudulent refunds; 1 of these 8 advised that
                                                                                              Page 15
                   The Internal Revenue Service Needs to Do More to Stop the
                            Millions of Dollars in Fraudulent Refunds
                                         Paid to Prisoners



it previously provided information to 1 State tax agency but discontinued the practice. Of the
remaining two FDCs, one responded that it shares data with three State tax agencies
(two through the Questionable Refund Program coordinators and one directly with the
Department of Revenue); the other FDC advised that it provides information to one State tax
agency.


7) Notification of Parole Authorities

Generally, I.R.C. § 6103 prohibits the IRS from notifying parole authorities if a paroled prisoner
commits tax fraud. However, the IRS can notify parole authorities if a former prisoner was on
parole for a prior tax violation, the conditions of the parole required future compliance with tax
laws, and the former prisoner violates the terms of parole by committing tax fraud.
The CI function uses a computer code to monitor the accounts of individuals on probation for
prior tax violations. A survey of all the FDCs indicated that 6 of the 10 did not have procedures
for checking the accounts of prisoners filing fraudulent refund returns to determine if they were
on probation. Therefore, the vulnerability still exists that parole authorities would not be notified
of a parolee committing refund fraud, even though our analysis identified only 4 of the
18,343 fraudulent returns with a computer code indicating the prisoner was on probation for a
prior tax violation.


8) Frequency of Updating Prison Files

The IRS updates the prisoner data file once a year, as described below.
   •   The CI function begins calling contacts at the prisons in February and March of each year
       to update the prison mailing list and to determine if there are any changes.
   •   The CI function’s Office of Refund Crimes issues memoranda in June requesting the data
       from the prisons.
   •   The IRS receives most of the data between August 15 and September 1. Information
       from some States comes in piecemeal after that, some as late as November.
   •   The IRS consolidates the data and resolves any outstanding data issues in December/early
       January, in time to load the prisoner data into the Electronic Fraud Detection System for
       that year’s tax return processing.
As previously mentioned, one reason the prisoner data file is incomplete is because of the early
deadline. We obtained the prisoner data file for PY 2005 and determined about
134,000 prisoners incarcerated between September 1 and December 31, 2003, were not on the
PY 2004 prisoner data file.

                                                                                            Page 16
                   The Internal Revenue Service Needs to Do More to Stop the
                            Millions of Dollars in Fraudulent Refunds
                                         Paid to Prisoners



The incompleteness of the prisoner data file prevented the IRS from detecting additional
fraudulent refund returns filed by prisoners. We believe it is imperative for the IRS to have an
accurate and complete prisoner data file, not only for the CI function but also for the IRS
Submission Processing function to stop fraudulent prisoner refunds that are below the thresholds
established for possible criminal prosecution. If Federal and State prisons were required to
provide accurate SSNs and other prisoner information in a consistent format, the IRS could
obtain the data much later in the year and include it in the prisoner data file for the upcoming
processing year. This improvement would help prevent prisoners from defrauding the Federal
Government of millions of dollars.


9) Largest Number of Returns Prepared by a Single Prisoner

As previously described, the CI function’s management information system is currently not
capable of providing the information needed to answer this question. This information could be
obtained through a time-consuming process of manually reviewing each case file involving
refund fraud to identify the preparer.
We analyzed data from the STARS and identified the 10 schemes involving the largest number
of prisoner returns. Returns not identified as prisoner-filed returns could actually have been filed
by prisoners but not identified as such due to the incompleteness of the prisoner data file. These
could also be situations involving prisoners using the SSNs of nonprisoners or nonprisoners
using prisoner SSNs.




                                                                                            Page 17
                      The Internal Revenue Service Needs to Do More to Stop the
                               Millions of Dollars in Fraudulent Refunds
                                            Paid to Prisoners



             Table 5: Schemes With the Largest Number of Prisoner Returns
                                     Refunds                           Refunds                          Refunds
                    Number of       Claimed on        Number of       Claimed on       Number of       Claimed on
                    Fraudulent      Fraudulent       Fraudulent       Fraudulent         Total             All
     2004 Scheme     Prisoner        Prisoner        Nonprisoner      Nonprisoner      Fraudulent      Fraudulent
       Numbers       Returns         Returns           Returns         Returns          Returns         Returns
  0720040020*           4,259     $18,494,308                1,689       $7,601,259          5,948     $26,095,567
  0920040058            1,546      $9,191,419                  624       $3,182,618          2,170     $12,374,037
  8920040022            1,103      $1,858,806                   71          $80,966          1,174      $1,939,772
  0720040317*           1,041      $5,671,747                  209       $1,156,713          1,250      $6,828,460
  0720040019*             774      $2,185,222                   84        $202,829             858      $2,388,051
  1820040018*             651      $1,849,262                  730       $2,637,717          1,381      $4,486,979
  0720040146              310      $1,756,224                  203       $1,256,461            513      $3,012,685
  0920040434              240       $104,017                    78          $32,929            318        $136,946
  8920040273              237       $310,418                   149        $192,729             386        $503,147
  1820040238              200       $113,174                    21          $12,119            221        $125,293
 Source: TIGTA analysis of the STARS.
      *   This is a “dump” scheme. Each FDC places fraudulent returns into the category of a dump scheme if the
          FDC cannot associate the return with a larger, individual scheme. Some FDCs also had a dump scheme for
          prisoner returns.



10) Prisons With the Highest Incidence of Refund Fraud

As previously described, the CI function’s management information system is currently not
capable of providing the information needed to respond to this question. This information could
be obtained through a time-consuming process of manually reviewing each case file involving
refund fraud to identify the preparer.
We analyzed the STARS and the prisoner data file information to determine which prisons had
the highest incidence of fraudulent returns. Table 6 shows those prisons with 200 or more
instances of fraudulent refund returns filed by individuals on the prisoner data file.
The first column shows the total number of fraudulent returns, while the second column shows
the number of fraudulent returns filed while the individual was incarcerated.23


23
  The prisoner data file includes all individuals that were incarcerated during the last 2 ½ years. We believe it is
important to distinguish between those individuals filing fraudulent returns while they are incarcerated and those
who have been released. Our analysis is based on the dates of incarceration as provided by the prisons. Although
we did not validate the accuracy of these data, we eliminated 338 records for which the incarceration dates were
missing or obviously invalid.
                                                                                                             Page 18
                   The Internal Revenue Service Needs to Do More to Stop the
                            Millions of Dollars in Fraudulent Refunds
                                         Paid to Prisoners



                      Table 6: Incidence of Refund Fraud at Prisons
           Number of      Fraudulent
           Fraudulent       Returns        State or
                                                                     Prison Name
            Returns       Filed While      Federal
              Filed      Incarcerated
                                                       CALIFORNIA SUBSTANCE ABUSE
                   499            489        CA        TREATMENT FACILITY
                                                       EVANS CORRECTIONAL
                   474            429       SC         INSTITUTION (C.I.)
                   353            320       FL         DESOTO C.I. – ANNEX
                   303            268       FL         JACKSON C.I.
                   292            269       SC         MCCORMICK C.I.
                   240            228       FL         JEFFERSON C.I.
                   236            194    FEDERAL       FORT DIX FEDERAL C.I. (FCI)
                   203            166       FL         CENTURY C.I.
                   201            177       FL         HARDEE C.I.
           Source: TIGTA analysis of the STARS and the 2004 prisoner data file.


Refund fraud committed in Federal prisons

On July 18, 2005, Senator Bill Nelson of Florida requested that our report include the scope of
these crimes committed in Federal prisons.
Our analysis of a CI function file dated May 4, 2005 showed that Federal prisoners filed 2,835
(15.5 percent) of the 18,343 fraudulent returns. The 2004 prisoner data file contained about
2.8 million records, 3.3 percent of which were Federal prisoners. While some CI function
managers did not believe refund fraud was a problem in Federal prisons, our analysis shows that
the overall rate of fraud in Federal prisons is slightly higher than that in other prisons.
Table 7 shows the 10 Federal prisons with the highest incidence of refund fraud.




                                                                                          Page 19
                  The Internal Revenue Service Needs to Do More to Stop the
                           Millions of Dollars in Fraudulent Refunds
                                        Paid to Prisoners



                Table 7: Incidence of Refund Fraud at Federal Prisons
            Number of      Fraudulent
            Fraudulent    Returns Filed
                                          State                Prison Name
             Returns         While
               Filed      Incarcerated
                236           194          NJ         FORT DIX FCI
                149           133          TX         SEAGOVILLE FCI
                                                      BROOKLYN METROPOLITAN
                133            18            NY       DETENTION CENTER
                                                      LOMPOC UNITED STATES
                118            113           CA       PENITENTIARY
                 84            82            TX       BASTROP FCI
                                                      ATWATER UNITED STATES
                 51             50           CA       PENITENTIARY
                 44            41            WI       OXFORD FCI
                 43            41             IL      PEKIN FCI
                 41            38            TX       TEXARKANA FCI
                 41            36            CA       TAFT FCI
           Source: TIGTA analysis of the STARS and the 2004 prisoner data file.

The Federal Bureau of Prisons provided the CI function with a tape that contained
378,509 records for which we determined 124,663 (32.9 percent) of the SSNs were missing,
incorrect, or invalid. The error rate ranged from 4.3 to 76.5 percent per prison. This compares
with an error rate of 15.4 percent for all State prisoner records, with a range of 2.4 to
87.8 percent per prison.
Table 7 shows the Fort Dix FCI had the highest incidence of refund fraud in the Federal prison
system, and Table 6 shows it has the seventh highest rate of all prisons. However, the Newark
CI function field office responded to a questionnaire that it was unaware of a particular prison
having a larger problem with refund fraud or if there were higher instances of refund fraud in
Federal prisons. The Newark CI function field office also replied it did not periodically
coordinate efforts with prison authorities in Federal and State prisons.
We believe the CI function field offices could take a more proactive and coordinated approach
with the FDCs by analyzing the bad data received, determining where it came from, contacting
the appropriate prison authorities, and stressing the mutual benefits of accurate data. This could
improve the accuracy of the data, resulting in the identification of more fraudulent returns.




                                                                                           Page 20
                  The Internal Revenue Service Needs to Do More to Stop the
                           Millions of Dollars in Fraudulent Refunds
                                        Paid to Prisoners




Impact on State prison systems

During the June 29, 2005, Congressional hearing, a Criminal Investigator from the South
Carolina Department of Corrections testified on the costs associated with prisoner refund fraud
and stated,
       The vast majority of the money received by the inmates is used in the drug trade. . . .
       Connected with the drug rings are assaults and extortion over territory or unpaid debts.
       Unfortunately, some of the money is used to lure employees into illegal activity.
       Although the total costs of inmate tax fraud to our agency will never be completely
       known, there have been measurable costs. . . . In late 2004, Evans Correctional
       Institution was placed on total lockdown due to rampant criminal behavior. The amount
       of contraband drugs, cash, and other contraband such as cell phones being confiscated
       was phenomenally high as were allegations of employee misconduct. For a period of
       approximately two [2] months, Evans CI [C.I.] staffing was at least doubled, and at times
       more, in an effort to bring the situation under control. The extra staff was provided by
       other institutions from throughout the [S]tate.
Coincidently, as noted in Table 6, the Evans C.I. had the second largest number of fraudulent
returns based on the 2004 prisoner data file information. The CI function does not provide this
information to the States’ Departments of Corrections, and the South Carolina Criminal
Investigator did not know of the existence of this information until a few days before the hearing.
Although providing specific information about individuals filing fraudulent returns would violate
I.R.C. § 6103, it would not be a violation if the CI function provided summary information to the
various prisons. This could alert prison authorities to potential fraudulent activity and allow
them to take appropriate action.
In our opinion, there is mutual benefit for the prisons to provide the IRS with timely and accurate
prisoner data and for the IRS to provide the prisons with statistical information of fraudulent
activity as well as specific instances of fraud. We recognize that there are legal issues to
overcome, but we believe the IRS must become more proactive in reaching solutions. Based on
prior testimony and our discussions, CI function management has committed to improving
communications and interaction with prison authorities. During our follow-on reviews, we will
continue to evaluate IRS efforts on this important tax administration issue and make
recommendations as warranted.




                                                                                           Page 21
                      The Internal Revenue Service Needs to Do More to Stop the
                               Millions of Dollars in Fraudulent Refunds
                                            Paid to Prisoners



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this limited-scope review was to determine the effectiveness of the
Internal Revenue Service’s (IRS) procedures for detecting fraudulent and potentially fraudulent
prisoner refund returns. We attempted to collect sufficient information to respond to questions
from the House Ways and Means Subcommittee on Oversight. The scope of our review
involved data on fraudulent refund returns and refund schemes identified during Processing Year
(PY) 2004.1 To accomplish our objective, we:
I.       Developed an understanding of the IRS’ policies and procedures relating to the detection
         of fraudulent refund returns.
         A. Interviewed IRS officials from the Criminal Investigation (CI) function and the Wage
            and Investment Division.
         B. Discussed the processes and procedures the CI function uses to obtain prisoner data
            from prison authorities.
         C. Identified enhancements the CI function is using to detect fraudulent prisoner refunds.
         D. Determined if the CI function developed procedures for notifying parole authorities
            of prisoners committing refund fraud.
         E. Analyzed procedures the Wage and Investment Division uses to identify potentially
            fraudulent returns.
         F. Determined if the Wage and Investment Division performed any studies to determine
            the feasibility of inputting a prisoner code on the Master File2 to assist in identifying
            potential fraudulent refunds.
II.      Evaluated the IRS’ coordination efforts with Federal and State prison authorities, as well
         as State revenue authorities.
         A. Performed a survey of the 10 Fraud Detection Centers (FDC)3 and 32 CI function
            field offices.


1
  Processing year refers to the year in which taxpayers file their tax returns at the Submission Processing sites.
Generally, returns for 2003 were processed during 2004, although returns for older years were also processed.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
3
  The FDCs use manual and computerized techniques to detect potentially fraudulent refund returns, prevent the
issuance of those refunds, and refer cases to the CI function field offices for investigation.

                                                                                                             Page 22
                      The Internal Revenue Service Needs to Do More to Stop the
                               Millions of Dollars in Fraudulent Refunds
                                            Paid to Prisoners



        B. Identified which States send prisoner data to the IRS and the procedures the IRS uses
           to obtain and validate the data.
        C. Obtained a listing from IRS personnel of 920 agreements related to information
           exchanges between the IRS and 21 judgmentally selected States and looked for
           provisions related to prisoner information.
        D. Evaluated the effect disclosure provisions under Internal Revenue Code
           Section 61034 had on the coordination with Federal and State prison authorities.
        E. Obtained a Treasury Inspector General for Tax Administration Office of Chief
           Counsel opinion on the ability of the IRS to share prisoner tax data with prison
           authorities.
III.    Analyzed statistical information on fraudulent and potentially fraudulent refund returns
        filed by prisoners during PY 2004.
        A. Analyzed an extract of the prisoner data file for PYs 2004 and 2005.
             1. Used the 2004 prisoner data file, containing about 2.8 million records, and
                identified about 550,000 records that were missing or inaccurate (e.g., duplicate
                or erroneous Social Security Numbers such as 000-00-0000).
             2. Compared the 2.8 millions records from the 2004 prisoner data file to the
                Electronic Fraud Detection System5 to determine the number and amount of
                improper Earned Income Tax Credit (EITC)6 claims and other refunds issued on
                prisoner returns not selected by the FDCs for screening.
             3. Queried the 2005 prisoner data file, containing about 3.1 million records, and
                identified about 220,000 records of prisoners that were incarcerated on or after
                September 1, 2003. We compared this information to the 2.8 million records
                from the 2004 prisoner data file to identify the number of prisoners incarcerated
                during the last 4 months of Calendar Year 2003 that were not on the
                2004 prisoner data file. This identified almost 134,000 prisoners.
             4. Used the results from Step III.A.3., researched the Individual Return Transaction
                File,7 and identified about 29,000 returns that were filed. We requested
                transcripts for almost 26,000 tax accounts that claimed refunds and identified the
                amount of the refund and EITC.


4
  Internal Revenue Code Section 6103 (2004).
5
  This is an automated system used by personnel in the FDCs to review potentially fraudulent tax returns.
6
  The EITC is a refundable credit established by Congress to aid low-income workers. Refundable means that the
taxpayer will receive the credit even if he or she does not owe taxes.
7
  This File contains information as it was transcribed from an individual’s tax return and its accompanying forms
and schedules.

                                                                                                           Page 23
                      The Internal Revenue Service Needs to Do More to Stop the
                               Millions of Dollars in Fraudulent Refunds
                                            Paid to Prisoners



         B. Analyzed extracts dated May 4, 2005, containing about 455,000 prisoner refund
            returns from the Electronic Fraud Detection System and 18,343 fraudulent refund
            returns from the Scheme Tracking and Referral System8 for PY 2004.
             1. Identified the number of schemes involving prisoner returns and the number of
                fraudulent nonprisoner returns that involved the same scheme as a prisoner return.
             2. Identified the number of refund schemes and fraudulent returns claiming the
                EITC and using a Wage and Tax Statement (Form W-2);9 Substitute for
                Form W-2, Wage and Tax Statement, or Form 1099-R, Distributions From
                Pensions, Annuities, Retirement, or Profit-Sharing Plans, IRAs, Insurance
                Contracts, Etc. (Form 4852);10 and/or Profit or Loss From Business
                (Schedule C).11
             3. Compared the 1,193 schemes involving prisoner returns the FDCs identified
                during PY 2004 to the Criminal Investigation Management Information System12
                as of March 31, 2005, and determined if they had been referred for investigation
                and prosecution.
             4. Identified the prisons that had the most instances of refund fraud.
         C. Determined the reasons why refunds were issued for 4,261 prisoner-filed refund
            returns determined by the IRS to be fraudulent. We also obtained and analyzed the
            results of the CI function’s additional analysis of why these refunds were issued.
         D. Matched the 18,343 fraudulent prisoner-filed refund refunds identified by the IRS in
            PY 2004 against the Master File to determine if Transaction Codes (TC) 910, 916, or
            918 were present on the account.13 For accounts without a TC 916 or 918, we
            determined if a refund was issued during PY 2005.




8
  A database that contains information on fraudulent returns and schemes such as the amount of refunds claimed and
stopped, the amount of EITC claimed and stopped, and information on the types of false documents used to
perpetrate the scheme.
9
  Form W-2 is used by employers to report the amount of wages earned by and taxes withheld from employees.
10
   Form 4852 is a substitute for a Form W-2 that taxpayers use to report wages and withholding when they do not
receive a Form W-2 from their employer. IRAs are Individual Retirement Arrangements.
11
   Schedule C is used by taxpayers to report income and expenses from self-employment on a U.S Individual Income
Tax Return (Form 1040).
12
   This is a database that tracks the status and progress of criminal investigations and the time expended by special
agents. It is also used as a management tool that provides the basis for decisions of both local and national scope.
13
   The CI function uses TC 910 to monitor accounts of taxpayers on probation (relating to the settlement of civil
liabilities and fines). TCs 916 and 918 are input to the IRS’ computers to prevent questionable refunds from being
issued and to ensure subsequent activity in the accounts (e.g., the filing of an amended tax return or the applying of a
payment to an account) is systemically identified and reviewed by FDC personnel.

                                                                                                              Page 24
                 The Internal Revenue Service Needs to Do More to Stop the
                          Millions of Dollars in Fraudulent Refunds
                                       Paid to Prisoners



                                                                              Appendix II


                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Diana M. Tengesdal, Audit Manager
Michael J. Hillenbrand, Lead Auditor
John Kirschner, Senior Auditor
Janice A. Murphy, Senior Auditor
Joseph P. Snyder, Senior Auditor
Steven E. Vandigriff, Senior Auditor
Lawrence N. White, Senior Auditor




                                                                                      Page 25
                 The Internal Revenue Service Needs to Do More to Stop the
                          Millions of Dollars in Fraudulent Refunds
                                       Paid to Prisoners



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Refund Crimes, Criminal Investigation SE:CI:RC
Director, Operations Policy and Support SE:CI:OPS
Director, Office of Governmental Liaison and Disclosure CL:GLD
Chief Counsel CC
Division Counsel/Associate Chief Counsel (Criminal Tax) CC:CT
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Criminal Investigation SE:CI:S:PS
       Commissioner, Wage and Investment Division SE:W




                                                                       Page 26
     The Internal Revenue Service Needs to Do More to Stop the
              Millions of Dollars in Fraudulent Refunds
                           Paid to Prisoners



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 27
The Internal Revenue Service Needs to Do More to Stop the
         Millions of Dollars in Fraudulent Refunds
                      Paid to Prisoners




                                                      Page 28
The Internal Revenue Service Needs to Do More to Stop the
         Millions of Dollars in Fraudulent Refunds
                      Paid to Prisoners




                                                      Page 29
